No. 19IN THE

Supreme Court of the United States
ELEAZAR CORRAL VALENZUELA,

v.
UNITED STATES OF AMERICA,

Petitioner,

Respondent.

ON PETITION OF WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

STEPHEN E. EBERHARDT

Counsel of Record

Supreme Court No. 201187
16710 Oak Park Avenue
Tinley Park, IL 60477
708-912-3200
s-eberhardt@sbcglobal.net
Dated: October 4, 2019

QUESTIONS PRESENTED FOR REVIEW
1.
Whether the equitable doctrine of laches
applies in civil denaturalization proceedings?
2.
Whether the District Court erred in
refusing Petitioner’s request for discovery and a
hearing on potentially dispositive Constitutional
issues prior to granting the Government’s Rule 12(c)
Summary Judgment Motion?

i

PARTIES
ELEAZAR CORRAL VALENZUELA is the
Petitioner herein.
The UNITED STATES OF AMERICA is the
Respondent herein.
Neither party is a corporation.

ii

TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................v
OPINIONS BELOW....................................................1
JURISDICTION ..........................................................1
STATEMENT OF THE CASE ....................................1
REASONS FOR GRANTING CERTIORARI .............3
I.

The District Court erred in
refusing Petitioner’s request for
discovery and a hearing on
potentially dispositive
Constitutional issues prior to
granting the Government’s
Summary Judgment Motion. ................3
A.

The District Court Erred
in Denying Petitioner’s
Request For Discovery
That Sought Relevant
Information Regarding
Potentially Dispositive
Equitable and
Constitutional Claims. ................4
1.

Laches ...............................5

2.

Due Process and
Equal Protection ...............8

CONCLUSION ............................................................9

iii

APPENDIX
A.

July 26, 2019 Order of the
Seventh Circuit Court of Appeals .......1a

B.

Judgment Order of the District
Court of August 18, 2018 .....................8a

C.

Memorandum Opinion and Order
of the District Court of July 29,
2018 ....................................................10a

D.

Transcript of Proceedings in the
District Court of February 22,
2018 ....................................................33a

iv

TABLE OF AUTHORITIES
CASES:

Blackledge v. Allison,
431 U.S. 63, 97 S.Ct. 1621 (1974) ....................5

Bracey v. Gramley,
520 U.S. 899, 117 S.Ct. 1793 (1997) ................5

Costello v. United States,
365 U.S. 265, 81 S.Ct. 534 (1961) ....................7

Danjaq LLC v. Sony Corp.,
263 F.3d 942 (9th Cir. 2001) .............................6

In re: Santos,
589 B.R. 413 (2018) ...................................... 6-7

Lingenfelter v. Keystone Consolidated Industries,
Inc., 691 F.2d 339 (7th Cir. 1982) .....................5
Oppenheimer Funds, Inc. v. Sanders,
437 U.S. 340, 98 S.Ct. 2380 (1978) ..................5

Petrella v. Metro-Goldwyn-Mayer, Inc.,
572 U.S. 663, 134 S.Ct. 1962 (2014) ................6

Times-Mirror Co. v. Super. Ct.,
3 Cal. 2d 309, 44 P.2d 547 (1935) ....................7

United States v. Kairys,
782 F.2d 1374 (7th Cir. 1986) .......................6, 7

v

Village of Willowbrook v. Olech,
528 U.S. 562, 120 S.Ct. 1073 (2000) ................8

Washington v. Davis,
426 U.S. 229, 96 S.Ct. 2040 (1976) ..................8
CONSTITUTIONAL PROVISIONS:
Fifth Amendment ....................................................3, 8
STATUTES:
28 U.S.C. § 1254(1) .....................................................1
28 U.S.C. § 1291 ..........................................................3
28 U.S.C. § 1345 ..........................................................2
RULES:
Supreme Court Rule 13.1 ...........................................1
OTHER AUTHORITIES:
1 D. Dobbs, Law of Remedies, §2.4(4), p. 104
(2d ed. 1993) .....................................................6

vi

OPINIONS BELOW
The Seventh Circuit Court of Appeals issued an
Order affirming the Judgment of the District Court on
July 26, 2019. A copy of the Seventh Circuit’s Order is
contained in Appendix A (A. 1a) attached hereto.
The United States District Court for the
Northern District of Illinois Eastern Division, the
Honorable Matthew F. Kennelly presiding, issued its
Judgment Order on August 18, 2018 a copy of which is
contained in Appendix B (A. 8a) attached hereto.
Judge Kennelly’s Order granting the Government’s
Summary Judgment Motion and denying Petitioner’s
Motion to Dismiss/Strike was entered on July 29, 2018
a copy of which is contained in Appendix C (A. 10a)
attached hereto.
JURISDICTION
The Seventh Circuit Court of Appeals issued an
Order affirming the judgment of the District Court on
July 26, 2019.
This petition is timely filed pursuant to
Supreme Court Rule 13.1 in that it is being filed
within ninety (90) days of the Circuit Court’s final
order.
The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
STATEMENT OF THE CASE
In March 1991, Mr. Corral married a lawful
permanent resident of the United States. Thereafter,
on February 10, 1994, he applied for an immigrant
visa at the U.S. consulate in Ciudad Juarez, Mexico.
His visa was approved on the same day and Mr. Corral
entered the United States as a lawful permanent
1

resident. Mr. Corral applied for naturalization in 1999
and was naturalized as a United States citizen on
June 15, 2000.
On August 8, 2000, Mr. Corral was indicted in
the Circuit Court of Kane County, IL alleging seven (7)
counts of aggravated criminal sexual abuse. Pursuant
to a plea agreement, on November 2, 2000, he entered
a plea of guilty to one count and was sentenced to
forty-eight months probation and ordered to register as
a sex offender. The count of conviction charged an act
that occurred sometime between June 9, 1998 and
February 26, 2000. Mr. Corral’s conviction was known
to the Government at least as early as 2005 because of
his travels to Mexico.
On November 21, 2017, the Government filed
the five (5) count Complaint in the instant cause.
Jurisdiction was proper in the District Court pursuant
to 28 U.S.C. § 1345.
Defendant’s Motion to
Dismiss/Strike the Complaint sought dismissal of the
Government’s Complaint based on (1) laches and (2)
Due Process and Equal Protection grounds that, in
essence, raised selective prosecution claims. Defendant
requested a hearing be held on the claims as raised in
the Motion and, prior thereto, discovery authorized to
secure evidence on those claims since relevant
information would be in the exclusive control of the
Government.
The Government filed a Motion for Judgment on
the Pleadings as to Counts 1, 2 and 5 and a Motion to
Stay Discovery pending resolution of the Motion for
Judgment on the Pleadings.
The District Court granted the Motion to Stay
Discovery. Thereafter, the District Court denied Mr.
Corral’s Motion to Dismiss/Strike the Complaint and
granted the Government’s Motion for Judgment on the
2

Pleadings with respect to Count 1, but denied the
Motion as to Counts 2 and 5. On August 9, 2018, the
remaining counts 2 thru 5 were dismissed as moot.
Judgment was entered on August 15, 2018.
The Seventh Circuit Court of Appeals affirmed
the judgment of the District Court on July 26, 2019.
(A. 1a). Jurisdiction was proper in the Court of
Appeals pursuant to 28 U.S.C. § 1291.
REASONS FOR GRANTING THE
WRIT OF CERTIORARI
I.

The District Court erred in refusing
Petitioner’s request for discovery and a hearing
on potentially dispositive Constitutional issues
prior to granting the Government’s Summary
Judgment Motion.

The reasons for the Government’s seventeen
(17) year delay in filing denaturalization proceedings
and the reasons for the Government targeting Mr.
Corral as one of only a handful of individuals for
denaturalization have never been answered.
Constitutional claims were raised in the District Court
that, had Mr. Corral been afforded discovery and a
hearing, would have required dismissal of the
Complaint. The Motion was brought pursuant to the
equitable doctrine of laches and the Fifth Amendment.
Had Mr. Corral prevailed on any of the grounds as
raised, the proceedings should have been terminated.
Mr. Corral agreed with the Government that
“[a]s a threshold matter, the [Appellate] Court should
resolve in this Circuit whether laches is an available
defense in cases brought under 8 U.S.C. §1451.” (Gov’t
Brief on Appeal at page 20). The Seventh Circuit
refused to address the issue.
3

The District Court found Mr. Corral’s Equal
Protection claims to be “conjectural” “on the present
record.” Of course, the evidence of any Equal
Protection violation was totally and exclusively in the
hands of the Government. Thus, Mr. Corral sought
discovery in support of his claims.
This Court should grant Certiorari (1) to
address and determine whether laches applies in
denaturalization proceedings, and (2) to remedy the
denial of Mr. Corral’s Constitutional rights that
resulted from the District Court’s denial of discovery in
support of the specific allegations that would have
required the dismissal of the Complaint.
A.

The District Court Erred in Denying
Petitioner’s Request For Discovery That
Sought Relevant Information Regarding
Potentially Dispositive Equitable and
Constitutional Claims.

The District Court characterized the Motion to
Dismiss/Strike as “not so much a motion to dismiss as
a request for discovery and a hearing on certain issues
that [Petitioner] contends may warrant dismissal of
the action.” [A. 15a-16a]. Without the benefit of any
discovery, the District Court concluded it need not
determine if laches is a valid defense to a
denaturalization proceeding because Defendant could
not prove prejudice with respect to counts 1 or 2.
[A. 19a].
The District Court found Mr. Corral’s Due
Process/Equal Protection/selective prosecution claims
“on the present record, conjectural” and denied
discovery and a hearing. [A. 20a]. Realizing the
“present record” was insufficient, Mr. Corral requested
discovery and a hearing to obtain and present relevant
4

evidence that was in the exclusive possession and
control of the Government.
Parties may obtain discovery regarding any
matter relevant to the litigation whether it relates to
the claim or defense of a party including information
that would “help define and clarify the issues.”
Oppenheimer Funds, Inc. v. Sanders, 437 U.S. 340,
350-51, 98 S.Ct. 2380 (1978).
In the habeas context, where a party makes
specific allegations that may, if the facts are
developed, show that he is entitled to relief, it is the
duty of the court to provide the necessary procedures
for an adequate inquiry. Bracey v. Gramley, 520 U.S.
899, 905-10, 117 S.Ct. 1793 (1997). The purpose of
habeas corpus is to safeguard a person’s freedom from
detention in violation of constitutional guarantees.
Blackledge v. Allison, 431 U.S. 63, 72, 97 S.Ct. 1621
(1974). The Constitutional guarantees afforded Mr.
Corral herein should entitle him to similar procedures
for the enforcement of his basic constitutional rights.
1.

Laches

Laches is principally a question of the inequity
of permitting a claim to be enforced. Laches is based
upon changes of conditions or relationships involved
with the claim. In order to support a claim of laches,
there must be a showing of both a lack of diligence by
the party against whom the defense is asserted and
prejudice to the defending party. Lingenfelter v.
Keystone Consolidated Industries, Inc., 691 F.2d 339,
340 (7th Cir. 1982). Courts have recognized two chief
forms of prejudice in the laches context - evidentiary
and expectations based.
The latter can be
demonstrated by a showing that the party claiming
laches took actions or suffered consequences that it
5

would not have had the plaintiff brought suit properly.
Danjaq LLC v. Sony Corp., 263 F.3d 942, 955 (9th Cir.
2001).
Denaturalization proceedings are equitable in
nature. United States v. Kairys, 782 F.2d 1374, 1384
(7th Cir. 1986), citing, Federenko, 449 U.S. 516.
Laches is a defense developed by the courts of equity.
Its principal application was, and remains, to claims of
an equitable cast for which the Legislature has
provided no fixed time limitation. Petrella v. MetroGoldwyn-Mayer, Inc., 572 U.S. 663, 678, 134 S.Ct.
1962 (2014), citing, 1 D. Dobbs, Law of Remedies,
§2.4(4), p. 104 (2d ed. 1993)(“laches ... may have
originated in equity because no statute of limitations
applied ... suggest[ing] that laches should be limited to
cases in which no statute of limitations applies.”).
An emerging trend allows the defense of laches
in suits brought by the government. In re: Santos, 589
B.R. 413, 423 (2018).
For instance, in N.L.R.B. v. P*I*E
Nationwide, 894 F.2d 887, 894 (7th Cir.
1990), Judge Richard Posner stated
“government suits in equity are subject
to the principles of equity,” and “laches is
generally, and we think correctly,
assumed to be applicable to suits by
government agencies as well as by
private parties.” Id. Judge Posner later
identified three situations where the
doctrine of laches might justifiably be
applied against the government, in
United States v. Admin. Enter., Inc., 46
F.3d 670 (7th Cir. 1995): 1) when the
instance of laches is particularly
egregious; 2) where there is no applicable
6

statute of limitations; or 3) when the
government “as a holder of commercial
paper” is enforcing a private right. Id. at
672-73. See also Cayuga Indian Nation
v. Pataki, 413 F.3d 266, 278 (2nd Cir.
2005)(following the Seventh Circuit and
finding all three circumstances applied to
subject the United States to the doctrine
of laches). Santos, Id.
“Equity does not wait upon precedent which
exactly squares with the facts in controversy, but will
assert itself in those situations where right and justice
would be defeated but for its intervention.” Santos, Id.
at 424, quoting, Times-Mirror Co. v. Super. Ct., 3 Cal.
2d 309, 44 P.2d 547, 557 (1935).
This Court has never directly addressed the
question of whether laches applies in a
denaturalization proceeding.
Costello v. United
States, 365 U.S. 265, 282, 81 S.Ct. 534 (1961). The
Seventh Circuit has followed the approach of this
Court in Costello in addressing the facts of a particular
case instead of holding there is an absolute bar to
assertion of the defense of laches in a denaturalzation
proceeding. See United States v. Kairys, 782 F.2d
1374, 1384 (7th Cir. 1986). Judge Posner has made
clear, though, that in cases when the instance of laches
is particularly egregious and where there is no statute
of limitations, as in denaturalization proceedings, the
defense of laches is “assumed to be applicable.”
This Court should grant Certiorari to address
whether laches applies in civil denaturalization
proceedings.

7

2.

Due Process and Equal Protection

The Due Process Clause of the Fifth
Amendment contains an equal protection component
prohibiting the United States from invidiously
discriminating between individuals or groups.
Washington v. Davis, 426 U.S. 229, 240, 96 S.Ct. 2040
(1976).
Even an individual “class of one” can
successfully bring an equal protection claim where a
party alleges that he has been intentionally treated
differently from others similarly situated and there is
no rational basis for the difference in treatment.
Village of Willowbrook v. Olech, 528 U.S. 562, 120
S.Ct. 1073, 1074 (2000).
The District Court’s denial of discovery deprived
Mr. Corral of the ability to show a set of facts and
circumstances that would have been sufficient to grant
his requested relief. Material questions of fact existed
regarding why the Government waited seventeen (17)
years to file the Complaint, what motivated the
Government’s actions and whether the actions were
based on or motivated by improper considerations such
as a changed Executive policy. The Government was
in complete control of this relevant information.
Information held exclusively by the Government would
have given insight into not only the Government’s
delay in bringing the prosecution, but information
relevant to the decision to target and prosecute Mr.
Corral and the motivations therefore that were
relevant to his Constitutional claims.
Mr. Corral was substantially prejudiced in the
presentation of his case and defenses by the District
Court’s denial of his request for discovery and a
hearing on issues that should have been the basis for
the Court to grant Mr. Corral’s Motion to
Dismiss/Strike. The District Court should have
8

authorized discovery to afford Mr. Corral the
opportunity to present favorable evidence held in the
exclusive control of the Government in support of his
laches and constitutional claims that properly would
have been the basis for dismissal of the Complaint.
Had the discovery request been granted, the
District Court could not have found that Mr. Corral
could not prove any set of circumstances that would
have entitled him to relief. Mr. Corral made specific
allegations that, if the facts were developed, would
have shown he was entitled to relief.
CONCLUSION
The District Court erred in not addressing the
potentially dispositive issues as raised in Mr. Corral’s
“Motion to Dismiss/Strike” prior to moving on to
address the Government’s Rule 12(c) Motion. The
Government even tacitly recognized this by asking the
Seventh Circuit to address the application of the
laches defense to denaturalization proceedings. As the
evidence of the Constitutional violations was in the
exclusive control of the Government, Mr. Corral’s
request for discovery should have been granted.
For these reasons, Mr. Corral asks this
Honorable Court grant the Writ of Certiorari, reverse
the decision of the Seventh Circuit Court of Appeals
and Order the District Court to authorize discovery
and hold a hearing prior to addressing any Motions as
filed by the Government.

9

Respectfully submitted,

/s/

Stephen E. Eberhardt

STEPHEN E. EBERHARDT

Counsel of Record

Supreme Court No. 201187
16710 Oak Park Avenue
Tinley Park, IL 60477
708-912-3200
s-eberhardt@sbcglobal.net
Dated: October 4, 2019

10

APPENDIX

APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
No. 18-2789
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
ELEAZAR CORRAL VALENZUELA,

Defendant-Appellant.

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-08423 — Matthew F. Kennelly, Judge.

ARGUED APRIL 15, 2019 —
DECIDED JULY 26, 2019

Before WOOD, Chief Judge, and BAUER and ST.
EVE, Circuit Judges.
ST. EVE, Circuit Judge. Seventeen years after
Eleazar Corral Valenzuela (Corral) was convicted of
aggravated criminal sexual abuse of a minor family
member in Illinois state court, the United States
ﬁled a civil complaint to revoke his naturalized
1a

citizenship
and
cancel
his
certiﬁcate
of
naturalization. 8 U.S.C. § 1451(a). The district court
granted the government judgment on the pleadings,
see Fed. R. Civ. P. 12(c), after dismissing Corral’s
aﬃrmative defenses. We aﬃrm.
I
Corral, a native of Mexico, was admitted to the
United States as a lawful permanent resident in
1994. In January 1999, he applied for naturalization,
and he became a United States citizen in June 2000.
Shortly after, a grand jury in Kane County,
Illinois indicted Corral on seven counts of
aggravated criminal sexual abuse. Less than five
months after becoming a United States citizen,
Corral pleaded guilty to one count of the indictment,
which charged:
On or about June 9, 1998 through
February 26, 2000, Eleazar Corral
committed the offense of Aggravated
Criminal Sexual Abuse, Class 2 Felony
in violation of Chapter 720, Section
5/12-16(b) of the Illinois Compiled
Statutes, as amended, in that said
defendant committed an act of sexual
conduct with [redacted] in that the
defendant knowingly touched the
vagina of [redacted] for the purpose of
the
sexual
gratification
of
the
defendant.
Corral was convicted under Illinois’s aggravated
criminal sexual abuse statute, 720 ILCS 5/12-16(b),
which at the time of his conviction stated:
The accused commits aggravated
criminal sexual abuse if he or she
2a

commits an act of sexual conduct with a
victim who was under 18 years of age
when the act was committed and the
accused was a family member.
In 2017, the United States filed a five-count civil
complaint seeking to revoke Corral’s citizenship on
the grounds that he obtained his citizenship illegally
and by willful misrepresentation or concealment of a
material fact. See 8 U.S.C. § 1451(a). We focus on the
first count of the government’s complaint, which
alleged that Corral lacked good moral character
because he committed a crime involving moral
turpitude within the statutory period. See 8 U.S.C.
§ 1427(a)(3); 8 C.F.R. § 316.10(a)(1). In other words,
the government sought to revoke Corral’s citizenship
based on his failure to comply with a statutory
prerequisite for naturalization, namely, having good
moral character during the five years preceding his
application for citizenship until the time he took the
oath of allegiance to the United States. See
Fedorenko v. United States, 449 U.S. 490, 506 (1981)
(“Failure to comply with any of these conditions
renders the certificate of citizenship ‘illegally
procured,’ and naturalization that is unlawfully
procured can be set aside.”).
Corral filed an answer and a motion to
dismiss/strike seeking discovery and an evidentiary
hearing. Around the same time, the United States
filed its motion for judgment on the pleadings. The
district court denied Corral’s motion and granted the
government’s motion with respect to the first count
of the complaint. The district court dismissed the
remaining counts as moot and granted Corral’s
motion to stay execution of the judgment. This
appeal followed.

3a

II
We first turn to the district court’s grant of the
government’s motion for judgment on the pleadings,
which we review de novo. Kanter v. Barr, 919 F.3d
437, 440-41 (7th Cir. 2019).
We have described a crime involving moral
turpitude as “conduct that shocks the public
conscience as being inherently base, vile, or
depraved, and contrary to the accepted rules of
morality and the duties owed between persons or to
society in general.” Sanchez v. Holder, 757 F.3d 712,
715 (7th Cir. 2014) (quotations omitted). Corral
concedes that his Illinois conviction for aggravated
criminal sexual abuse of a minor is a crime of moral
turpitude under our precedent, but he nonetheless
makes a half-hearted request that we reconsider. His
argument is waived—and doubly so.
Corral cites to Quintero-Salazar v. Keisler, 506
F.3d 688, 692-94 (9th Cir. 2007), and argues that
there the Ninth Circuit “decided differently” than we
have “based on similar facts.” He failed, however, to
cite Quintero-Salazar or make this argument to the
district court. We therefore cannot consider it.
Wheeler v. Hronopoulos, 891 F.3d 1072, 1073 (7th
Cir. 2018). If that were not enough, the argument
Corral now makes is woefully underdeveloped. He
cites Quintero-Salazar without explaining or
defending its rationale. What is more, for the
argument to succeed, Corral would likely need to
show that his crime, 720 ILCS 5/12-16(b), is
categorically not one of moral turpitude. See GarciaMartinez v. Barr, 921 F.3d 674, 681 (7th Cir. 2019)
(explaining that the categorical approach applies,
unless the underlying statute is divisible, in which
case a modified categorical approach applies). That
4a

is often a complicated question in any case, id. at
675, and it is one with which Corral does not even
attempt to wrestle. For this reason, too, the
argument is waived. Riley v. City of Kokomo, 909
F.3d 182, 190 (7th Cir. 2018).
III
Corral’s other arguments concern his laches and
selective prosecution affirmative defenses. He raised
these defenses in his “Motion to Dismiss / Strike
Complaint,” which, as the district court recognized,
was “not so much a motion to dismiss as a request
for discovery and a hearing.” The district court’s
denial of Corral’s motion involved purely legal
questions, so we review it de novo.
A
To establish his laches defense, Corral must show
the government’s lack of diligence and resulting
prejudice. Navarro v. Neal, 716 F.3d 425, 439 (7th
Cir. 2013). Assuming the government did not
exercise diligence in bringing this revocation action,
Corral argues that the government’s 17-year delay
caused
evidentiary
prejudice
due
to
the
government’s failure to provide an affidavit of the
immigration officer who conducted his naturalization
interview and the subsequent unavailability of the
immigration officer. He argues that had the
immigration officer provided testimony, he would
have
clarified
whether
Corral
made
misrepresentations or concealed material facts
during the naturalization process, thus supporting a
violation of 8 U.S.C. § 1451(a).
Whether Corral made a willful misrepresentation
or concealed a material fact is irrelevant because
these factors do not relate to the ground for Corral’s
5a

denaturalization. Recall that Corral’s citizenship
was revoked based on his failure to comply with a
statutory prerequisite for naturalization—having
good moral character during the five years preceding
his application for citizenship until the time he took
the oath of allegiance to the United States. His
citizenship
was not
revoked
for
willfully
mispresenting or concealing a material fact.
Therefore, Corral’s “evidentiary prejudice” argument
fails.1
Still, the government asks us to clarify that
laches never applies in civil denaturalization actions.
We are reluctant to adopt such a categorical rule in
light of possible changes to criminalization
standards and public mores. And we decline to do so
here given that resolution of this case does not
require it.
B
Corral further asserts a selective prosecution
defense under equal protection standards, arguing
that the government’s decision to denaturalize him
17 years after his criminal conviction is suspicious
based on perceived changes in executive policy. See
United States v. Armstrong, 517 U.S. 456, 465
(1996); Wayte v. United States, 470 U.S. 598, 608-09
(1985). Assuming that any such defense applies in
the context of civil denaturalization proceedings, by
challenging the exercise of broad prosecutorial
discretion, Corral encounters “a formidable obstacle.”
United States v. Moore, 543 F.3d 891, 899 (7th Cir.
2008). Corral cannot merely challenge the exercise of
We need not address Corral’s “expectational prejudice”
argument raised for the first time on appeal. See Duncan Place
Owners Assoc. v. Danze, Inc., 927 F.3d 970, 973 (7th Cir. 2019)
(“Arguments not raised in the district court are waived.”).
1

6a

prosecutorial discretion on the ground that it was
irrational, but rather he must show that the decision
to prosecute was deliberately based on invidious
criteria such as race, religion, or other arbitrary
classifications. Armstrong, 517 U.S. at 464; Moore,
543 F.3d at 900.
Corral argues that the government targeted only
a
handful
of
child
sexual
abusers
for
denaturalization, including himself, and that “[i]t
would seem to defy simple logic that in seventeen
(17) years, the Government had only become aware
of these five (5) individuals who had been
naturalized and later convicted of felony offenses
who they then chose to target.” Not only is Corral’s
argument based on a questionable premise, namely,
that the United States selectively sought to
denaturalize convicted child sexual abusers in only
five instances in the last 17 years, but he fails to
explain how the government’s decision was
deliberately based on invidious criteria. Indeed, all
he has shown is that the government brought
denaturalization actions against some individuals
who were convicted of the sexual abuse of children.
Otherwise, Corral’s position that a change in
executive policy might have had something to do
with the timing of his denaturalization proceedings,
alone, simply does not support a selective
prosecution defense.
For these reasons, we AFFIRM the district court.

7a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
Case No. 17 C 8423
ELEAZAR CORRAL VALENZUELA,
Defendant.
JUDGMENT ORDER
MATTHEW F. KENNELLY, District Judge:
It is hereby ordered, adjudged, and decreed as
follows, consistent with 8 U.S.C. § 1451(f):
In accordance with its order of July 29, 2018,
the Court enters judgment on Count I of the
complaint in favor of plaintiff United States of
America and against defendant Eleazar Corral
Valenzuela (“Corral”). The Court dismisses the
remaining counts of the complaint as moot, without
prejudice to refiling.
The Court revokes and sets aside the order
admitting Corral to U.S. citizenship, effective as of
the original date of the certificate, June 15, 2000.
The Court cancels Corral’s Certificate of
Naturalization No. 24018015. Corral is forever
restrained and enjoined from claiming any rights,
privileges, benefits, or advantages under any
document which evidences United States citizenship
obtained as a result of his June 15, 2000
naturalization.
8a

Under 8 U.S.C. § 1451(f), Corral is ordered to
surrender, by August 31, 2018, his Certificate of
Naturalization, No. 24018015, and any copies
thereof in his possession, to counsel for the United
States, Timothy M. Belsan.
Corral is further
ordered to surrender any and all United States
passports, whether current or expired. Corral is
further ordered to make good faith efforts to recover
any copies of the foregoing documents that he knows
are in the possession of others and surrender them
to the Attorney General, or his representative,
including Mr. Belsan.
/s/

Matthew F. Kennelly

MATTHEW F. KENNELLY
United States District Judge
Date: August 15, 2018

9a

APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
vs.
ELEAZAR CORRAL VALENZUELA,
Defendant.

)
)
)
)
) Case
) No. 17
) C 8423
)
)

MEMORANDUM OPINION AND ORDER
MATTHEW F. KENNELLY, District Judge:
The United States seeks to denaturalize
Eleazar Corral Valenzuela (Corral), a naturalized
U.S. citizen, under 8 U.S.C. § 1451(a) on the ground
that he obtained U.S. citizenship illegally or by
willful misrepresentation or concealment of a
material fact. Corral has filed a “Motion to Dismiss /
Strike Complaint” in which he requests discovery
and a hearing on certain issues that he claims may
warrant dismissal of the action, and the United
States has moved under Federal Rule of Civil
Procedure 12(c) for judgment on the pleadings on
three of the five claims in its complaint. For the
reasons stated below, the Court denies Corral’s
motion and grants the government’s motion for
judgment on the pleadings in part.

10a

Background
Corral, who was born in Mexico, was admitted
to the United States as a lawful permanent resident
on February 10, 1994. In January 1999, Corral
applied for naturalization using a Form N-400
Application for Naturalization. The form is stamped
January 14, 1999. See Compl., Ex. E at 3. Part 7,
Question 15(a) of the Form N-400 asks “Have you
ever . . . knowingly committed any crime for which
you have not been arrested?” Id. at 3. On Corral’s
Form N-400, that question is answered in the
negative. Id. The certification in Part 11 of the form
states “I certify . . . under penalty of perjury under
the laws of the United States of America that this
application, and the evidence submitted with it, is all
true and correct.” Id. at 4. Corral signed this
certification on December 30, 1998. Id. In May
2000, an Immigration and Naturalization Service
(INS)1 officer interviewed Corral under oath
regarding his naturalization application. On May 10,
2000, the INS approved his naturalization
application. Corral took the oath of allegiance and
was naturalized as a United States citizen on June
15, 2000.
Two months later, in August 2000, a grand
jury in Kane County, Illinois indicted Corral on
seven counts of aggravated criminal sexual abuse in

Congress transferred the functions of the INS to the
Department of Homeland Security (DHS) on March 1, 2003.
Mendoza v. Sessions, 891 F.3d 672, 674 n.1 (7th Cir. 2018). The
Court refers to the INS throughout this opinion because that is
the agency that was responsible for naturalization proceedings
during the relevant time.
1

11a

violation of chapter 720, section 5/12-16(b)2 of the
Illinois Compiled Statutes. See Compl., Ex. B (Aug.
9, 2000 Indictment); 720 ILCS 5/12-16(b) (1998). On
November 2, 2000, Corral pled guilty to count 1 of
the indictment, which charged the following:
On or about June 9, 1998 through
February 26, 2000, Eleazar Corral
committed the offense of Aggravated
Criminal Sexual Abuse, Class 2
Felony[,] in violation of Chapter 720,
Section 5/12-16(b) of the Illinois
Compiled Statutes, as amended, in that
said defendant, [redacted] committed
an act of sexual conduct with [redacted]
in that the defendant knowingly
touched the vagina of [redacted] for the
purpose of the sexual gratification of
the defendant.
Aug. 9, 2000 Indictment at 1; see also Compl., Ex. C
(Nov. 2, 2000 Plea Hearing Tr.). The state court
entered a judgment finding Corral guilty of
aggravated criminal sexual abuse in violation of 720
ILCS 5/12-16(b), sentenced him to 48 months of sex
offender probation, and ordered him to register as a
sex offender. See Compl., Ex. D (Nov. 2, 2000
Judgment).
In November 2017, the United States filed the
present denaturalization action against Corral. The
government’s complaint to revoke naturalization
contains five counts:

Renumbered as 720 ILCS 5/11-1.60(b) and amended effective
July 1, 2011. 2010 Ill. Legis. Serv. P.A. 96-1551, Art. 2, § 5.
2

12a

1. Illegal procurement of naturalization: lack
of good moral character (crime involving
moral turpitude)
2. Illegal procurement of naturalization: lack
of good moral character (unlawful act
adversely reflecting on moral character)
3. Illegal procurement of naturalization: lack
of good moral character (false testimony)
4. Illegal procurement of naturalization: lack
of good moral character (unlawful act of
providing false testimony)
5. Procurement of naturalization by
concealment of a material fact or by willful
misrepresentation
Compl. at 7-12. In January 2018, Corral filed a
motion entitled “Defendant’s Motion To Dismiss /
Strike Complaint,” in which he asks the Court to
authorize discovery and hold a hearing on whether
the complaint should be dismissed as barred by
laches or as a violation of Corral’s due process or
equal protection rights. In February 2018, the
United States moved for judgment on the pleadings
on counts 1, 2, and 5 of the complaint, arguing that
because Corral is estopped from denying the
essential elements of the offense to which he pled
guilty, there is no genuine dispute of material fact
and it is entitled to judgment as a matter of law on
those counts.
Discussion
Under 8 U.S.C. § 1427(a), an individual may
not be naturalized as a citizen of the United States
unless he or she (1) meets certain residence and
physical presence requirements during the five-year
period immediately preceding the date of filing the
13a

naturalization application, (2) “has resided
continuously within the United States from the date
of the application up to the time of admission to
citizenship,” and (3) “during all the periods referred
to in this subsection has been and still is a person of
good moral character.” 8 U.S.C. § 1427(a). The
applicant for naturalization “bears the burden of
demonstrating that, during the statutorily
prescribed period, he or she has been and continues
to be a person of good moral character. This includes
the period between the examination and the
administration of the oath of allegiance.” 8 C.F.R.
§ 316.10(a)(1).
Under 8 U.S.C. § 1451(a), the United States
may institute denaturalization proceedings “for the
purpose of revoking and setting aside the order
admitting [a] person to citizenship and canceling the
certificate of naturalization on the ground that such
order and certificate of naturalization were illegally
procured or were procured by concealment of a
material fact or by willful misrepresentation.” 8
U.S.C. § 1451(a). A certificate of naturalization is
“illegally procured” if “the congressionally imposed
prerequisites to the acquisition of citizenship,”
including the good moral character requirement, are
not met when naturalization is granted. Fedorenko
v. United States, 449 U.S. 490, 506 (1981); see also
United States v. Kairys, 782 F.2d 1374, 1376 n.1
(7th Cir. 1986) (“Naturalization is illegally procured
if any statutory requirement is not met at the time
naturalization is granted.”).
The right of citizenship is a precious one.
Costello v. United States, 365 U.S. 265, 269 (1961);
see also Schneiderman v. United States, 320 U.S.
118, 122 (1943) (explaining that “[i]t would be
difficult to exaggerate” the value and importance of
14a

the right of citizenship). The Supreme Court has
repeatedly recognized that “severe consequences
may attend” the loss of citizenship and that those
consequences are especially dire for those who have
lived and worked in the United States as citizens for
many years. See Costello, 365 U.S. at 269;
Fedorenko, 449 U.S. at 505; Chaunt v. United
States, 364 U.S. 350, 353 (1960); Schneiderman, 320
U.S. at 122; see also Knauer v. United States, 328
U.S. 654, 659 (1946) (“[D]enaturalization, like
deportation, may result in the loss of all that makes
life worth living.”) (internal quotation marks and
citation omitted).
Given the importance of the right of
citizenship—and the potentially devastating toll that
loss of that citizenship is likely to take on a
naturalized citizen and his or her family—it is little
wonder that the Supreme Court has held that “such
a right once conferred should not be taken away
without the clearest sort of justification and proof.”
Schneiderman, 320 U.S. at 122. Accordingly, the
government carries a heavy burden of proof when
attempting to divest a naturalized citizen of
citizenship after it has been granted:
denaturalization is warranted only if the evidence is
“clear, unequivocal, and convincing,” such that it
does not “leave the issue in doubt.” Costello, 365
U.S. at 269 (internal quotation marks and citations
omitted); see also United States v. Firishchak, 468
F.3d 1015, 1023 (7th Cir. 2006); Kairys, 782 F.2d at
1378.
A.

Corral’s “motion to dismiss / strike
complaint”

As previously indicated, Corral’s “Motion to
Dismiss / Strike Complaint” is not so much a motion
15a

to dismiss as a request for discovery and a hearing
on certain issues that he contends may warrant
dismissal of the action. In support of this motion,
Corral first questions whether the crime to which he
pled guilty is necessarily a crime involving moral
turpitude. Corral also argues that the government
has failed to adequately support its contentions that
he lied or made a material misrepresentation to the
INS agent who conducted his naturalization
interview and that the agent would have been
precluded from approving his application had Corral
disclosed his crime during the application process.3
As previously explained, there is no doubt that
the government bears a heavy burden of proof in a
denaturalization proceeding. But the fact that the
government has not proven all of the elements of
each count in the complaint at this stage does not
mean that additional discovery and a hearing are
necessarily warranted. In its complaint, the
government has presented five separate (albeit
overlapping) grounds for denaturalization. Any of
the five counts alleged—if proven by clear,
unequivocal, and convincing evidence—would
Corral further argues that such issues are properly resolved
by a jury. As the government notes, however, the case Corral
cites in support of this argument, Maslenjak v. United States,
137 S. Ct. 1918 (2017), deals not with 8 U.S.C. § 1451, which is
a civil statute, but with its criminal counterpart, 18 U.S.C. §
1425(a). Id. at 1928 (“[T]he proper causal inquiry under §
1425(a) is framed in objective terms: To decide whether a
defendant acquired citizenship by means of a lie, a jury must
evaluate how knowledge of the real facts would have affected a
reasonable government official properly applying
naturalization law.”). The Seventh Circuit has long held that
there is no right to a jury trial in civil denaturalization
proceedings. See, e.g., Firishchak, 468 F.3d at 1026; Kairys,
782 F.2d at 1384.
3

16a

provide an independent basis for revoking Corral’s
citizenship.
As an initial matter, the issue of whether a
crime is properly classified as a crime involving
moral turpitude is a question of law. See LagunasSalgado v. Holder, 584 F.3d 707, 710 (7th Cir. 2009).
Secondly, to establish that denaturalization is
warranted on counts 1 or 2 of the complaint, the
government need not prove either (1) that Corral lied
or made a material misrepresentation to the INS
agent who conducted his naturalization interview or
(2) that the agent would have been precluded from
approving his application had Corral disclosed his
crime during the application process.
Specifically, the question of whether Corral
lied or otherwise made a material misrepresentation
to the INS agent who conducted his naturalization
interview has no bearing on whether Corral
committed a crime involving moral turpitude (count
1) or an unlawful act adversely reflecting on moral
character (count 2) that would prevent him from
establishing that he possessed the requisite good
moral character during the relevant statutory
period. And if the crime to which Corral pled guilty
in 2000 is indeed a crime involving moral turpitude,
given the timing of the crime, there is no question
that he would have been precluded from establishing
that he possessed the requisite good moral character
through June 15, 2000, the date he became a citizen.
See 8 U.S.C. §§ 1101(f)(3), 1182(a)(2)(A)(i)(I) (“[N]o
person shall be regarded as, or found to be, a person
of good moral character who, during the period for
which good moral character is required to be
established,” was convicted of or admits having
committed “a crime involving moral turpitude (other
than a purely political offense)” unless one of the
17a

exceptions enumerated in sub-section
1182(a)(2)(A)(ii) apply); see also 8 C.F.R.
§ 316.10(b)(2)(i) (“An applicant shall be found to lack
good moral character if during the statutory period
the applicant: (i) Committed one or more crimes
involving moral turpitude, other than a purely
political offense, for which the applicant was
convicted, except as specified in section
212(a)(2)[A](ii)(II) of the Act. . . .”). Because the
Court does not need to decide the issues raised by
Corral to determine whether the government is
entitled to judgment as a matter of law on certain
counts of the complaint that provide an independent
basis for denaturalization, the Court denies Corral’s
request for additional discovery and a hearing on
those issues.4
Corral also argues that the Court should allow
discovery and hold a hearing on whether the present
action is barred by laches, in light of the fact that the
government did not initiate denaturalization
proceedings until seventeen years after Corral’s
conviction, pursuant to a guilty plea, of aggravated
criminal sexual abuse. In order for the defense of
laches to apply, there must be proof of both (1) lack
of diligence by the party against whom the defense is
asserted and (2) prejudice to the party asserting the
defense. Costello, 365 U.S. at 282; see also Navarro
v. Neal, 716 F.3d 425, 429 (7th Cir. 2013). Corral
contends that the government should have to explain
why it took seventeen years to bring this suit and
As discussed below, the judgment granted by way of this
decision is not final because it does not dispose of all of the
government’s claims. The remaining claims will have to be
disposed of in some way in order to permit entry of a final
judgment. If the government pursues the remaining claims,
Corral may renew his request for discovery.
4

18a

that he will be prejudiced if the INS agent who
conducted his naturalization interview in 2000 is no
longer available to testify as a result of the delay.
The government primarily argues in response that
the defense of laches does not apply against the
United States in a civil denaturalization action.
Alternatively, the government contends that a laches
defense does not apply in this particular case
because Corral cannot show prejudice.
The Court need not decide whether laches is a
valid defense to a denaturalization action. Even if it
is, and even if the seventeen-year lapse between
Corral’s conviction and the initiation of the present
suit reflects a lack of diligence, Corral cannot
establish that he has been prejudiced by this delay
with respect to counts 1 or 2 of the complaint. Even
if the INS agent who conducted Corral’s
naturalization interview is, as Corral suggests,
unavailable to testify, as previously explained,
counts 1 and 2 of the complaint do not depend on the
agent’s testimony or what happened during the
naturalization interview, and Corral has suggested
no other source of prejudice. See Costello, 365 U.S.
at 282-83. For that reason, the Court concludes that
additional discovery and a hearing on Corral’s
claimed defense of laches is unwarranted.
Lastly, Corral contends that the government’s
attempt to revoke his citizenship raises due process
and equal protection concerns. Corral suggests that
the government’s decision to target him for
denaturalization after seventeen years is
constitutionally suspicious in light of the change in
administration earlier in the year and the likelihood
that the government has not initiated proceedings
against other naturalized citizens who are known
child sex abusers and felons. These allegations are,
19a

on the present record, conjectural, and as such they
are insufficient to warrant discovery or a hearing.
Corral’s contention that to deny him a hearing on
this issue violates his due process rights is likewise
without merit.
The Court therefore denies Corral’s “Motion to
Dismiss / Strike Complaint.”
B.

Government’s motion for judgment on the
pleadings

Under Federal Rule of Civil Procedure 12(c), a
party may move for judgment on the pleadings after
the pleadings are closed. Fed. R. Civ. P. 12(c). On a
motion for judgment on the pleadings, the Court
considers the complaint, the answer, and any
written instruments attached as exhibits,5 and it
views the facts in the light most favorable to the
non-moving party. See N. Indiana Gun & Outdoor
Shows, Inc. v. City of South Bend, 163 F.3d 449, 452
(7th Cir. 1998); Alexander v. City of Chicago, 994
F.2d 333, 336 (7th Cir. 1993). Judgment on the
pleadings is appropriate only if there is no disputed
issue of material fact and the moving party is clearly
entitled to judgment as a matter of law. Unite Here
Local 1 v. Hyatt Corp., 862 F.3d 588, 595 (7th Cir.
2017).
As previously noted, the United States has
moved for judgment on the pleadings with respect to
counts 1, 2, and 5 of the complaint.
To the extent that Corral objects to the Court’s reference to
the unredacted versions of the exhibits attached to the
complaint, the Court notes that it may take into consideration
documents incorporated by reference to the pleadings and may
take judicial notice of matters of public record. See, e.g.,
Milwaukee Police Ass’n v. Flynn, 863 F.3d 636, 640 (7th Cir.
2017).
5

20a

1.

Count 1 (illegal procurement of
naturalization: lack of good moral
character—crime involving moral
turpitude)

The United States first contends that it is
entitled to judgment on the pleadings on count 1.
The government argues that there is no genuine
dispute that Corral illegally procured his
naturalization, because he committed a crime
involving moral turpitude within the statutory
period during which he was required to establish
good moral character.
As previously noted, in November 2000—less
than five months after becoming a citizen—Corral
pled guilty to one count of aggravated criminal
sexual abuse in violation of 720 ILCS 5/12-16(b), and
the state court entered judgment on the same. See
Aug. 9, 2000 Indictment; Nov. 2, 2000 Plea Hearing
Tr.; Nov. 2, 2000 Judgment. At that time, section
5/12-16(b) read as follows: “The accused commits
aggravated criminal sexual abuse if he or she
commits an act of sexual conduct with a victim who
was under 18 years of age when the act was
committed and the accused was a family member.”
720 ILCS 5/12-16(b) (1998). The unredacted version
of the indictment leaves no doubt that the victim
was both a minor and one of Corral’s family
members. The government contends that, by virtue
of his guilty plea and subsequent conviction, Corral
is collaterally estopped from denying that he
sexually abused a minor child who was also a family
member.
There is no question that federal courts are
obligated to give state court judgments the “same
effect as they would have in the courts of the state
21a

rendering them.” Brown v. Green, 738 F.2d 202, 205
(7th Cir. 1984) (citing 28 U.S.C. § 1738). The Court is
not persuaded, however, that it is appropriate to
invoke the doctrine of collateral estoppel in this
context. In American Family Mutual Insurance Co.
v. Savickas, 193 Ill. 2d 378, 739 N.E.2d 445 (2000),
the Illinois Supreme Court6 explained that “estoppel
effect may be accorded to a prior criminal conviction
in an appropriate case.” Id. at 387, 739 N.E.2d at
451. Three threshold requirements must be met
before the doctrine of collateral estoppel may be
applied: (1) the issue decided in the prior
adjudication must be identical to the issue in the
present suit; (2) there must have been a final
judgment on the merits in the prior adjudication;
and (3) the party against whom estoppel is asserted
must have been a party (or in privity with a party) to
the prior adjudication. Id. Additionally, the party
against whom estoppel is asserted “must actually
have litigated the issue in the first suit and a
decision on the issue must have been necessary to
the judgment in the first litigation.” Id. Even when
the threshold requirements for collateral estoppel
are satisfied, “the doctrine should not be applied
unless it is clear that no unfairness will result to the
party sought to be estopped.” Id. at 388, 739 N.E.2d
at 451.
The problem here is that the issue in
question—whether Corral sexually abused a minor
child who was also a family member between June
1998 and February 2000— was not “actually
litigated” in Corral’s criminal case. Rather, Corral
pled guilty to the offense, and the state court entered
“Federal courts must apply a state’s preclusion rules to a state
court’s decision unless the federal statute being sued under
explicitly provides otherwise.” Brown, 738 F.2d at 205-06.
6

22a

a judgment accordingly. Thus the doctrine of
collateral estoppel is not an appropriate fit in this
case.
That, however, is not the end of the matter.
Under Illinois law, “[a] judgment rendered by a court
having jurisdiction of the parties and the subject
matter” is “binding upon . . . all parties and privies
to it, until it is reversed in a regular proceeding for
that purpose.” Malone v. Cosentino, 99 Ill. 2d 29, 32,
457 N.E.2d 395, 397 (1983) (internal quotation
marks omitted). Such a judgment, “unless reversed
or annulled in some proper proceeding, is not open to
contradiction or impeachment, in respect of its
validity, verity, or binding effect . . . in any collateral
action or proceeding.” Id. (internal quotation marks
omitted); see also Work Zone Safety, Inc. v. Crest
Hill Land Dev., LLC, 2015 IL App (1st) 140088, ¶ 13,
29 N.E.3d 520, 526 (“‘Once a court with proper
jurisdiction has entered a final judgment, that
judgment can only be attacked on direct appeal, or in
one of the traditional collateral proceedings now
defined by statute’—namely, habeas corpus, relief
from judgment under section 2-1401, or a
postconviction hearing.”) (quoting Malone, 99 Ill. 2d
at 32-33, 457 N.E.2d at 397). The state court entered
a final judgment finding Corral guilty, pursuant to
his plea, of aggravated criminal sexual abuse in
violation of 720 ILCS 5/12-16(b). See Nov. 2, 2000
Judgment; 720 ILCS 5/12-16(b) (1998). That
judgment is binding on Corral, and the government
is entitled to rely on it in this case. Corral may not
collaterally attack the judgment in the present
proceeding (nor has he sought to attack it in state
court via one of the mechanisms established under
state law). See, e.g., Village of Vernon Hills v.
Heelan, 2014 IL App (2d) 130823, ¶ 29, 14 N.E.3d
23a

1222, 1230; see also United States v. Ep, No. 02 CV
780, 2003 WL 22118926, at *4 (N.D. Ill. Sept. 11,
2003) (noting that the court is “not in a position to
entertain” the defendant’s collateral attack on the
underlying judgment of criminal conviction in
denaturalization proceedings based in part on that
conviction).
Corral contends that “the purported State
court ‘conviction’ was void ab initio” because count 1
of the indictment did not state either that the
alleged victim was under 18 years of age or that
Corral was a family member, both of which are
elements of the offense charged. Def.’s Resp. to Pl.’s
Mot. for J. on the Pleadings at 2. This is incorrect.
Although it is not possible to discern from the
redacted version of the indictment filed with the
complaint that the victim was a minor or a family
member of Corral, the unredacted version of count 1
of the indictment states unequivocally that the
victim was both a minor and a family member.7 The
Court notes that count 1 of the indictment is less
than clear in another way: it states that Corral
committed this offense “on or about June 9, 1998
through February 26, 2000.” Aug. 9, 2000 Indictment
at 1. Corral could not have committed the discrete
act of aggravated criminal sexual abuse described in
count 1 “on or about June 9, 1998 through February
26, 2000.” Id. (emphasis added). Nonetheless, “[t]he
date of the offense is not an essential factor in child
sex offense cases.” People v. Guerrero, 356 Ill. App.
3d 22, 27, 826 N.E.2d 485, 489 (2005) (“In cases
involving the sexual abuse of a child, flexibility is
permitted regarding the date requirement necessary
Out of respect for the victim’s privacy, the Court will not
specify the familial relationship in this opinion.
7

24a

under the Code.”). Accordingly, Corral’s conviction is
not void ab initio as Corral suggests. Nor is the lack
of specificity regarding the date of the crime
material to the questions to be decided in the present
case—the entire period from June 9, 1998 through
February 26, 2000 falls within the statutory period
during which Corral was required to prove good
moral character, because although Corral filed his
naturalization application in January 1999, he did
not take the oath of citizenship until June 2000. See
8 U.S.C. § 1427(a); 8 C.F.R. § 316.10(a)(1).
The November 2000 judgment conclusively
establishes that Corral committed the crime of
aggravated criminal sexual abuse of a minor child
who was also a family member between June 1998
and February 2000.
The government contends that Corral
illegally procured his June 2000 naturalization
because the crime of which he was convicted is a
crime involving moral turpitude and he committed it
during the statutory period during which he was
required to establish good moral character. An
individual shall be found to lack good moral
character if, among other things, “during the period
for which good moral character is required to be
established,” he or she was convicted of or committed
“a crime involving moral turpitude (other than a
purely political offense). . . .” 8 U.S.C. §§ 1101(f)(3),
1182(a)(2)(A)(i)(I); see also 8 C.F.R. § 316.10(b)(2)(i).
The term “crime involving moral turpitude” is not
defined by statute. Marin-Rodriguez v. Holder, 710
F.3d 734, 737 (7th Cir. 2013). The Board of
Immigration Appeals has described a crime of moral
turpitude as “including ‘conduct that shocks the
public conscience as being inherently base, vile, or
depraved, and contrary to the accepted rules of
25a

morality and the duties owed between persons or to
society in general.’” Lagunas-Salgado, 584 F.3d at
710 (quoting In re Solon, 24 I. & N. Dec. 239, 240
(BIA 2007)). In determining whether a particular
crime involves moral turpitude, the Seventh Circuit
asks “whether the act is ethically wrong without any
need for legal prohibition (acts wrong in themselves,
or malum in se) or only ethically neutral and
forbidden only by positive enactment (acts wrong
because they are so decreed, or malum prohibitum).”
Id. at 710-11 (internal quotation marks and citation
omitted).
As previously noted, the relevant subsection of
the criminal statute under which Corral was
convicted defined aggravated criminal sexual abuse
as “an act of sexual conduct with a victim who was
under 18 years of age when the act was committed
and the accused was a family member.” 720 ILCS
5/12-16(b) (1998). At the time, the statute defined
“sexual conduct” as follows:
any intentional or knowing touching or
fondling by the victim or the accused,
either directly or through clothing, of
the sex organs, anus or breast of the
victim or the accused, or any part of the
body of a child under 13 years of age, or
any transfer or transmission of semen
by the accused upon any part of the
clothed or unclothed body of the victim,
for the purpose of sexual gratification or
arousal of the victim or the accused.
720 ILCS 5/12-12(e) (2000). The sexual abuse of a
minor child—one who is a family member, no less—
is undoubtedly depraved and contrary to the
accepted rules of morality. See, e.g., Ashcroft v. Free
26a

Speech Coal., 535 U.S. 234, 244 (2002) (“The sexual

abuse of a child is a most serious crime and an act
repugnant to the moral instincts of a decent
people.”); United States v. Dave, No. 13 C 8867, 2015
WL 5590696, at *2 (N.D. Ill. Sept. 21, 2015) (“The
inherent impropriety of sexual contact between an
adult and a child, which animates statutory rape
laws, has led numerous courts to conclude that even
strict liability sex offenses involving minors are
morally turpitudinous.”); United States v. Gayle, 996
F. Supp. 2d 42, 51 (D. Conn. 2014) (“Sexual abuse
against a minor constitutes a crime of moral
turpitude because of its inherently vile and depraved
nature.”); Ep, 2003 WL 22118926, at *5 (“[C]rimes
involving sexual abuse, especially those involving
children, have generally been recognized as crimes
involving moral turpitude.”); see also Matter of
Silva-Trevino, 26 I. & N. Dec. 826, 834 (BIA 2016) (a
crime involving intentional sexual conduct by an
adult with a child is one that involves moral
turpitude as long as the perpetrator knew or should
have known the victim was a minor). It is therefore
plain to this Court that the crime of which Corral
was convicted is one of moral turpitude.
Because Corral committed this crime between
June 1998 and February 2000, there is likewise no
question that he was precluded from establishing
good moral character for the relevant statutory
period, which began in January 1994 (five years
before the filing date of Corral’s application for
naturalization) and did not end until he took the
oath of allegiance to the United States in June 2000.
See 8 U.S.C. § 1427(a); 8 U.S.C. §§ 1101(f)(3),
1182(a)(2)(A)(i)(I); 8 C.F.R. §§ 316.10(a)(1), (b)(2)(i).
Accordingly, Corral was not eligible to become a
naturalized citizen. The Court concludes that there
27a

is no genuine factual dispute and that Corral’s June
2000 naturalization was illegally procured based on
his inability to establish good moral character during
the requisite period due to having committed a crime
involving moral turpitude. The government has
proven by clear, unequivocal, and convincing
evidence that it is entitled to judgment as a matter
of law on this count. The Court therefore grants the
United States’ motion for judgment on the pleadings
with respect to count 1 of the complaint.
2.

Count 2 (illegal procurement of
naturalization: lack of good moral
character—unlawful acts adversely
reflecting on moral character)

The government has also moved for judgment
on the pleadings on count 2. It argues that even if
Corral’s crime had not been one involving moral
turpitude, he nonetheless would have been unable to
establish good moral character during the statutory
period, because his aggravated criminal sexual
abuse conviction is an unlawful act that adversely
reflects upon his moral character.
An individual who commits “unlawful acts
that adversely reflect upon [his or her] moral
character” during the statutory period shall also be
found to lack good moral character unless he or she
establishes “extenuating circumstances.” 8 C.F.R.
§ 316.10(b)(3)(iii); see also United States v. Suarez,
664 F.3d 655, 660-61 (7th Cir. 2011) (according
Chevron deference to 8 C.F.R. § 316.10(b)).
For the reasons explained above, the
November 2000 judgment conclusively establishes
that Corral committed an unlawful act of aggravated
criminal sexual abuse between June 1998 and
February 2000. There is no question that Corral’s
28a

crime adversely reflects upon his moral character,
but the pleadings do not establish by clear,
unequivocal, and convincing evidence that there
were no extenuating circumstances that mitigate the
severity of that crime. See Suarez, 664 F.3d at 662
(“Extenuating circumstances are those which render
a crime less reprehensible than it otherwise would
be, or ‘tend to palliate or lessen its guilt.’”) (quoting
Black’s Law Dictionary, Sixth Edition (1990)). The
government has alleged that no such extenuating
circumstances exist. See Compl. ¶ 51 (“Corral has
not established, and cannot establish, extenuating
circumstances with regard to the crime he
committed, and he therefore cannot avoid the
regulatory bar on establishing good moral character
found in 8 C.F.R. § 316.10(b)(3)(iii).”). But Corral
denied this in his answer, see Def.’s Answer to
Compl. ¶ 51, and neither his guilty plea nor the state
court judgment establish the absence of extenuating
circumstances, because that issue was not before the
state court at the time it accepted Corral’s plea.
Because the pleadings do not clearly,
unequivocally, and convincingly establish the
absence of extenuating circumstances, the
government has not proven that it is clearly entitled
to judgment as a matter of law that Corral would
have been ineligible for naturalization due to
unlawful acts adversely reflecting on his moral
character. Accordingly, the government is not
entitled to judgment on the pleadings with respect to
count 2 of the complaint.

29a

3.

Count 5 (procurement of naturalization
by concealment of a material fact or by
willful misrepresentation)

Lastly, the government has moved for
judgment on the pleadings on count 5. The
government contends that the pleadings clearly and
unequivocally demonstrate that Corral willfully
misrepresented or concealed the material fact of his
crime and that he procured citizenship as a result of
the misrepresentation.
Citizenship orders and certificates of
naturalization are “procured by concealment of a
material fact or by willful misrepresentation” if four
independent requirements are met: (1) the
naturalized citizen misrepresented or concealed
some fact; (2) the misrepresentation or concealment
was willful; (3) the fact was material; and (4) the
naturalized citizen procured citizenship as a result of
the misrepresentation. Kungys v. United States, 485
U.S. 759, 767 (1988). As the Seventh Circuit has
since explained, this means that the government
must show that “it is ‘fair to infer that the citizen
was actually ineligible’” for naturalization.8 United
States v. Latchin, 554 F.3d 709, 714 (7th Cir. 2009)
(quoting Kungys, 485 U.S. at 784 (Brennan, J.,
concurring)); United States v. Romero-Ramirez, No.
14-C-0522, 2015 WL 4492352, at *4 (E.D. Wis. July
23, 2015).

Like Maslenjak, Latchin dealt with section 1451(a)’s criminal
counterpart, 18 U.S.C. § 1425(a). Latchin, 554 F.3d at 712. The
Seventh Circuit explained, however, that the distinction
between the two statutes was trivial on this point, because
“both require a material misrepresentation and procurement of
citizenship.” Id. at 713 n.3.
8

30a

Corral has denied that the INS agent who
conducted his May 2000 naturalization interview
asked him, in accordance with Question 15(a) in Part
7 of the Form N-400, if he had ever knowingly
committed any crime for which he had not been
arrested. See Def.’s Answer to Compl. ¶ 19. Corral
further contends that the fact that the INS agent
made a number of red marks through that question
on the Form N-400 raises a material issue of fact
regarding whether he actually asked Corral the
question during the interview. See Compl., Ex. E at
3. Corral argues that the government has not met
its burden to show that the INS agent asked the
relevant question because the government’s affidavit
of good cause for this denaturalization action was
prepared by someone other than the agent who
interviewed Corral. See Compl., Ex. A at 9. The
government responds that even if Corral did not
make a misrepresentation or willfully conceal his
crime during the naturalization interview, the
pleadings nonetheless constitute clear, unequivocal,
and convincing evidence that Corral procured his
naturalization by concealment or willful
misrepresentation of a material fact because he did
not disclose his crime when he first filed his signed
naturalization application in January 1999.
As this Court has already noted, however, the
aggravated criminal sexual abuse charge to which
Corral pled guilty and of which he was subsequently
convicted could have taken place any time between
June 9, 1998 and February 26, 2000. See Aug. 9,
2000 Indictment at 1. Thus, Corral could have
committed the crime after he signed and filed his
naturalization application on January 14, 1999, in
which case, his negative answer to Question 15(a) on
the Form N-400 would not necessarily have been a
31a

willful concealment or misrepresentation. The Court
therefore finds that there is a genuine factual
dispute regarding whether Corral procured his
citizenship by willful misrepresentation or
concealment of a material fact. For this reason, the
Court denies the government’s motion for judgment
on the pleadings on count 5 of the complaint.
Conclusion
For the foregoing reasons, the Court denies
Corral’s motion to dismiss / strike the complaint (and
his request for discovery and a hearing) [dkt. no. 8].
The Court grants the government’s motion for
judgment on the pleadings with respect to count 1 of
the complaint, but denies the motion with respect to
counts 2 and 5 [dkt. no. 10]. The case is set for a
status hearing on August 8, 2018 at 9:30 a.m. The
government should be prepared to discuss at that
time how it proposes to deal with the remaining
claims in its complaint.
/s/

Matthew F. Kennelly

MATTHEW F. KENNELLY
United States District Judge
Date: July 29, 2018

32a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
vs.
ELEAZAR CORRAL VALENZUELA,
Defendant.
Docket No. 17 C 8423
Chicago, Illinois
February 22, 2018
9:30 o’clock a.m.
TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE
MATTHEW F. KENNELLY
APPEARANCES:
For the Plaintiff:
UNITED STATES DEPARTMENT OF JUSTICE
BY: MR. STEVEN PLATT
Ben Franklin Station
P.O. Box 868
Washington, DC 20044

33a

For the Defendant:
LAW OFFICES OF STEPHEN E. EBERHARDT
BY: MR. STEPHEN E. EBERHARDT
P.O. Box 5413
Tinley Park, IL 60477
(708) 912-3200
Court Reporter:
MS. CAROLYN R. COX, CSR, RPR, CRR, FCRR
Official Court Reporter
219 S. Dearborn Street, Suite 2102
Chicago, Illinois 60604
(312) 435-5639
(The following proceedings were held in open court:)
THE CLERK: Case No. 17 C 8423, USA v. Corral
Valenzuela.
THE COURT: Good morning.
MR. EBERHARDT: Good morning, Judge.
MR. PLATT: Good morning, your Honor.
THE COURT: Are you waiting for somebody else to
come up?
MR. EBERHARDT: I am waiting for my client, who
is here.
THE COURT: Well, they don’t necessarily need to
step up. Give me just a second here to grab my -Why has this disappeared from my docket? Bear
with me, sorry. There it is.
Give me your names.
MR. PLATT: I’m Steven Platt from the Department
34a

of Justice for the plaintiff, your Honor.
MR. EBERHARDT: Steve Eberhardt on behalf of the
defendant, your Honor.
THE COURT: Okay. So there’s already a motion to
dismiss that was filed by the defendant that’s - have you responded to it yet?
MR. PLATT: Yes, your Honor.
THE COURT: And the reply is due in like a week
and a half.
MR. EBERHARDT: The reply is due and I’d like to
address that when we talk about our scheduling.
THE COURT: Okay. And so then the motion I’ve got
now or at least one of the two motions is a motion by
the plaintiff, in other words, the government, for
judgment on the pleadings, and then you also asked
me to stay discovery.
So is anybody trying to do any discovery? Is there
something actually on the table that needs to be
stayed?
MR. EBERHARDT: We’ve done initial disclosures.
THE COURT: You’ve done 26(a)s?
MR. EBERHARDT: Yes.
THE COURT: Let me ask you your view on what I
should do with all of this and how it should all be set
up, and then I’ll ask Mr. Platt’s view.
MR. EBERHARDT: My suggestion, Judge, is
because I only have a few more days left to reply on
the motion to dismiss, where I’m at on my research
is the motion for the stay on discovery is going to be
intertwined and mixed in with the issues on the
35a

motion to dismiss. So what I would like to do at least
is have the same day set for my response to the two
government motions and my reply on the motion to
dismiss.
Basically, I wouldn’t want to get into a position
where I reply to the motion to dismiss, and then two
or three weeks later, I come up with something that
I want to say in opposition to our motion to stay
discovery because I think we need discovery on the
motion to dismiss.
THE COURT: Time out. You’ll need discovery on the
motion to dismiss. You filed the motion to dismiss.
MR. EBERHARDT: Right.
THE COURT: If you need discovery on the motion to
dismiss, why would you have filed it? You must not
be - - you must not have said what you meant.
MR. EBERHARDT: Well, based on the grounds.
THE COURT: You’re asking me to dismiss the
complaint.
MR. EBERHARDT: Yes.
THE COURT: Okay. Which means you want me to
dismiss the complaint without doing any discovery,
so why would you ·-- you’re saying that if I deny the
motion, you’re going to need discovery; that’s what
you’re saying, right?
MR. EBERHARDT: Well, this is not a 12(b)(6)
motion to dismiss just on the pleadings. This raises
the issue of latches and equal protection. All I can
say is it’s unusual, and I don’t think your Honor
would be able to rule - - once the burden shifts on
latches --

36a

THE COURT: Finish the sentence.
MR. EBERHARDT: -- once the burden shifts on
latches, then it’s up to the plaintiff to come in here
and basically justify a 17-year delay, and if the Court
wants to rule on that without them doing that, I
guess we don’t need discovery.
THE COURT: That’s what you kind of asked me to
do by filing a motion to dismiss. That’s what a
motion to dismiss means, dismiss the complaint
because they waited too long or whatever the ground
is.
MR. EBERHARDT: True.
THE COURT: I must be missing something fairly
basic here. Okay. I heard your view.
What do you think I should do?
MR. PLATT: Your Honor, for the reasons that we
expressed in our opposition to the motion to dismiss
-THE COURT: Which I haven’t read because it’s not
fully briefed yet.
MR. PLATT: Which is fair.
THE COURT: Just tell me.
MR. PLATT: Sure. We don’t think that your Honor
should grant judgment to the defendant on the basis
of latches, we don’t believe that the defendant has
carried its burden of showing that the government
was not diligent in bringing this action.
THE COURT: So you are not arguing that it’s not a
viable legal defense; you are saying it’s not
supported in this case.

37a

MR. PLATT: That’s correct. There’s a couple other
issues in the motion to dismiss that we think, you
know, for the reasons that your Honor -- you know, I
think what’s tripping up your Honor is what we seize
on in our opposition brief and we talk about that. In
essence, the latches defense we don’t think is viable,
but we don’t need discovery on that.
That’s a purely legal issue that wouldn’t require any
sort of discovery.
THE COURT: What I got here or the way I see this
is I have one side moving to dismiss, which asks me
to decide the case based on the pleadings that have
been filed, and I got the other side moving for
judgment on the pleadings, which asks me to do the
same thing. So I’m going to stay discovery until I’ve
ruled on both of those. And if somebody needs -- if
what I conclude is that this can’t be decided without
discovery, that’s when we are going to do discovery.
The motion to stay discovery is granted.
So it sounded like to me, Mr. Eberhardt, that you
wanted to file your response to their motion and your
reply on your motion at the same time. Am I getting
that right?
MR. EBERHARDT: Yes.
THE COURT: When do you want to do that by?
MR. EBERHARDT: Can I have 28 days, Judge?
THE COURT: The date for the defendant’s response
or reply on the motion to dismiss is extended to the
22nd of March. That’s also the due date for the
defendant’s response on the motion for judgment on
the pleadings, and the reply on that is due two
weeks after that which would be the 5th of April.
38a

I am going to have you come back on the 12th of
April at 9:30. I am not setting that as a ruling date,
but once I get all this stuff, I want to just kind of
eyeball it, and it’s conceivable I may have some
thoughts about it at that point, so that will just be a
status date. Don’t expect a ruling on it. Okay?
Great. Thanks a lot.
MR. EBERHARDT: Very good, Judge. Thanks a lot.
(Which were all the proceedings had in the aboveentitled cause on the day and date aforesaid.)
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
matter.
Carolyn R. Cox
Official Court Reporter
Northern District of Illinois

Date

/s/ Carolyn R. Cox, CSR, RPR, CFR, FCRR

39a

